N O . __________________
In The
SUPREME COURT OF THE UNITED STATES
T HOMAS F. K UZMA
Petitioner,
v
U NITED S TATES O F A MERICA ,
Respondent.

M OTION FOR L EAVE TO P ROCEED I N F ORMA P AUPERIS
Petitioner Thomas F. Kuzma respectfully asks this Honorable Court for
leave to proceed in forma pauperis so that he may file the accompanying Petition
for Writ of Habeas Corpus with this Court.
Petitioner was appointed counsel under the Criminal Justice Act of 1964, 18
U.S.C. § 3006A for all appellate proceedings. The order appointing counsel of
record is attached.
Respectfully submitted,

_/s/ Rosemary Gordon Pánuco

ROSEMARY GORDON PÁNUCO
C OUNSEL OF R ECORD
Law Office of Rosemary Gordon Pánuco
7320 N. La Cholla Blvd, Ste. 154, PMB #310
Tucson, Arizona 85741
(520) 797-6928
Appeals1@aol.com

Attorney for Petitioner

Date: 29 October 2020

